   U.S. DEPARTMENT OF COMMERCE
             Office of Inspector General




                     PUBLIC
                    RELEASE


                 INTERNATIONAL TRADE
                      ADMINISTRATION

  The American Institute in Taiwan Commercial
   Section Needs to Place Greater Emphasis on
Trade Promotion and Improve Internal Controls

           Audit Report No. BTD-10220-9-0001 / March 1999




           Office of Audits, Business and Trade Audits Division
U.S. Department of Commerce                                                                                    Final Report BTD-10220
Office of Inspector General                                                                                                March 1999

                                                  TABLE OF CONTENTS

EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i

INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

PURPOSE AND SCOPE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
    TAIWANESE MARKET . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
    THE AIT COMMERCIAL SECTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

FINDINGS AND RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6

          I.         GENERAL MANAGEMENT AND ORGANIZATION . . . . . . . . . . . . . . . . . . . . 6
                     A.   MOU Between US&FCS and AIT
                          Is Unclear and Ineffective . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
                     B.   Officers’ Inexperience Limits Potential Success of Operation . . . . . . . . . 9
                     C.   Key Areas Need Significant Management Improvements . . . . . . . . . . . . 10

                     RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
                         US&FCS’s Response to Draft Report and OIG Analysis . . . . . . . . . . . . 13

          II.        PROGRAM ACTIVITIES AND PERFORMANCE MEASUREMENT . . . . . . 17
                     A.   Post Heavily Engaged in Policy Matters
                          at the Expense of Trade Promotion . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17
                     B.   Post Is Not Focusing Sufficiently on Small
                           and Medium-Sized Companies . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18
                     C.   Trade Center Is Not Used Effectively as a Marketing Tool . . . . . . . . . . . 19
                     D.   The Commercial Section Does Not Apply Federal and Departmental
                          Guidelines Regarding Cost Recovery . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20
                     E.   The Commercial Section Needs to Broaden Its Focus . . . . . . . . . . . . . . . 22
                     F.   Post Needs to Better Manage BXA-Related Responsibilities . . . . . . . . . 23

                     RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24
                         US&FCS’s Response to Draft Report and OIG Analysis . . . . . . . . . . . . 25

          III.       INTERNAL CONTROL ENVIRONMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 30
                     A.   Sufficient Financial and Accounting Information
                          Is Not Being Maintained . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 30
                     B.   Key Internal Control Duties Are Not Adequately Separated . . . . . . . . . . 31
                     C.   Lack of Proper Imprest Fund Procedures in Place . . . . . . . . . . . . . . . . . . 31
U.S. Department of Commerce                                                                      Final Report BTD-10220
Office of Inspector General                                                                                  March 1999

                D.       Commerce Guidelines for Trade Event Reporting and
                         Use of Trade Event Funds Not Followed . . . . . . . . . . . . . . . . . . . . . . . . . 31
                E.       Commercial Section Lacks Information
                         Needed to Control Operations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 32
                F.       Gold Key Service Violated Lease Agreement . . . . . . . . . . . . . . . . . . . . . 33
                G.       Prior Year Unliquidated Obligations and
                         Unobligated Authorizations Exist . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 34
                H.       Information Technology Deficiencies Need to Be Addressed . . . . . . . . 35

                RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 36
                    US&FCS’s Response to Draft Report and OIG Analysis . . . . . . . . . . . . 37

APPENDIX I: US&FCS’S COMPLETE RESPONSE TO THE DRAFT REPORT
APPENDIX II:     AIT COMMERCIAL SECTION ORGANIZATIONAL CHART
APPENDIX III:    ACRONYMS
U.S. Department of Commerce                                                    Final Report BTD-10220
Office of Inspector General                                                                March 1999

                                   EXECUTIVE SUMMARY

The “Chinese Economic Area,” which includes China, Hong Kong, and Taiwan, is the largest of
the “big emerging markets,” equal to the seventh largest economy in the world and constituting
the third largest trading partner for the United States. Taiwan, an important component of the
Chinese Economic Area, has a high per capita gross domestic product, low inflation, full
employment, and a robust growth rate, but is natural-resource poor and is reliant upon imports
to meet its domestic consumption and industrial needs. Over four decades, Taiwan transformed
itself from an underdeveloped, agricultural island to an economic power that is a leading
producer of high-technology goods.

On January 1, 1979, the United States recognized the People’s Republic of China as the sole
legal government of China and acknowledged the Chinese position that there is but one China
and Taiwan is part of China. Therefore, official diplomatic recognition shifted from Taipei to
Beijing. To maintain ties with Taiwan, President Carter signed the Taiwan Relations Act into
law and the American Institute in Taiwan (AIT) was established in April 1979. AIT is a
nonprofit, private corporation that undertakes a wide range of activities representing U.S.
interests, including commercial services, economic and political reporting, agricultural sales,
travel services, cultural exchange, and military sales. AIT has locations in Taipei, a branch
office in the city of Kaohsiung in southern Taiwan, and a headquarters office located in
Arlington, Virginia. AIT, while not an embassy, functions very similar to an embassy.

The AIT Commercial Section receives most of its funding through AIT (which receives funds
through the Department of State) and a portion through the Department of Commerce under the
terms of a Memorandum of Understanding (MOU). The AIT Commercial Section operates
similar to other United States and Foreign Commercial Service (US&FCS) overseas posts in
terms of delivery of products and services to U.S. exporters.

The Office of Inspector General (OIG) conducted a performance audit of the AIT Commercial
Section operations in Taiwan, performing its fieldwork during September 29 - October 3, 1997.
Our audit focused on the general management and organization of the AIT Commercial Section,
the effectiveness of its program in serving the needs of U.S. exporters, its relationship with the
Department, and the integrity of the overall internal control environment.

We were pleased to find that the Senior Commercial Officer (SCO) has made organizational
changes that have resulted in improved operations, as well as a motivated and productive staff.
The Commercial Section maintains strong, productive relations with its clients, multiplier
organizations, and other AIT agencies. In addition, the Commercial Section has been successful
in its delivery of US&FCS products and services, producing a high volume of quality research
products and timely services for its clients. We also noted a high level of client satisfaction with



                                                -i-
U.S. Department of Commerce                                                                 Final Report BTD-10220
Office of Inspector General                                                                             March 1999

the products and services. However, our audit identified the following issues that warrant
management attention.

I.      General Management and Organization

The relationship among the Commercial Section, the Department of Commerce, and
AIT/Washington needs improvement. The Memorandum of Understanding between AIT and
US&FCS — a document that provides the basic financial, programmatic and management tenets
of the relationship between AIT and US&FCS — needs to be revised. US&FCS headquarters
needs to provide additional management support of the AIT Commercial Section to remedy
problems associated with the development of the MOU and the relationship between the
organizations. The MOU inadequately defines, and US&FCS and AIT officials disagree over, the
nature of related costs and positions for which US&FCS is responsible. Furthermore,
inexperienced Commercial Officers and inadequate Chinese language skills among many of the
officers threaten the effectiveness of the operation. In addition, management weaknesses in
terms of appropriate skills and qualifications in trade promotion leadership and the United
States-Asia Environmental Partnership (U.S.-AEP) program need to be addressed (see pages 6-
10).

II.     Program Activities and Performance Measurement

The Commercial Section is devoting significant time and resources toward trade policy matters
at the expense of its trade promotion program. In fact, the Commercial Section is leading AIT’s
efforts on a number of trade policy issues. This attention to trade policy is manifested in the
relatively low level of attention devoted to its Trade Center—the most public and visible
component of its operations. The Trade Center facility and materials on display appear dated,
and the center is kept closed except for brief periods when it is used by clients. In addition, the
Commercial Section’s pricing policy for services provided to the U.S. business community, as
well as for trade events, needs immediate review to bring the pricing policy into compliance
with departmental cost-recovery guidelines. During FY 1995 - FY 1997, the Commercial Section
averaged a profit of 11.65 percent on trade events it sponsored. Profits on individual trade events
ranged from $5 to $27,745 (see pages 17-23).

In addition, while the Commercial Section has generated a high dollar figure of “success”
stories, the number of success stories is small and reflects too many large company, advocacy-
related projects.1 Insufficient attention is being paid to programs that assist small and medium-



        1
          Success stories are a performance measure of export actions in which the Department played a role.
Success stories result from trade event activities, products, services, or counseling and describe the type of
assistance provided to the company by US&FCS.

                                                        -ii-
U.S. Department of Commerce                                                   Final Report BTD-10220
Office of Inspector General                                                               March 1999

sized companies. During FY 1996 and FY 1997, large companies represented over 40 percent of
the success stories. By concentrating so heavily on these projects, the Commercial Section is not
achieving a high number of successes with ITA targeted small and medium-sized firms (see pages
18-19 and 22-23).

In addition, the Commercial Section is providing inadequate support for the Bureau of Export
Administration’s (BXA’s) licensing and shipment needs. Specifically, the AIT Commercial
Section is not responding in a consistently timely manner and not following requirements for
on-site verifications; 64 percent of Pre-License Checks (PLCs) and 75 percent of Post-Shipment
Verifications (PSVs) were not completed within established time frames. In addition, a contract
employee was allowed to conduct PLCs in lieu of an American officer as required (see page 23).

III.    Internal Control Environment

Internal controls and financial management practices of the Commercial Section are inadequate,
ineffective, and are not adequately emphasized by Commercial Section management. We found
problems that need resolution by Commercial Section management (see pages 30-35):

l       Source financial documentation is not efficiently maintained. As a result, totals for
        revenues and expenditures cannot be quickly or accurately provided to management.
        Furthermore, in the absence of cuff records, reconciliation to information maintained by
        AIT/Taiwan is not possible (see page 30).

l       Key duties are not separated and supervisory review of internal controls is limited and
        ineffective. The trade center assistant position combines functions of an administrative
        Foreign National (FN), a class B cashier, a receiving clerk, and other support staff. We
        found the same situation in terms of management of the Section’s imprest fund where all
        petty cash disbursement activities are performed by the trade center assistant who
        handles three other duties: cash disbursements to employees, reimbursement requests,
        and fund reconciliations (see page 31).

l       There is a lack of proper imprest fund procedures in place. Also, spot checks of the petty
        cash fund are infrequent and are not recorded (see page 31).

l       The Commercial Section is not following proper procedures on the reporting and use of
        funds generated by its trade events. During FY 1997, the Commercial Section used trade
        event funds generated from multiple, individual events to purchase office equipment and
        services valued at approximately $72,000. Departmental guidelines requires approval
        for such purchases from the ITA Trade Event Board (see page 31).



                                               -iii-
U.S. Department of Commerce                                                     Final Report BTD-10220
Office of Inspector General                                                                 March 1999

l       Systematic analysis of obligations and disbursements does not take place. For instance,
        procedures are not in place to ensure that the “Budget Execution, Status of Funds -
        FMC60 Report” is reviewed for unobligated funds that may be outstanding. As a result,
        the Commercial Section cannot determine if prior year funds available (unobligated) and
        prior year unliquidated obligations are still valid, and runs the risk of failing to obligate
        funds prior to the end of the fiscal year and then losing the authority to obligate them (see
        page 32).

        Some of these problems were exacerbated by inadequate communication and
        information flow between the Commercial Section and AIT’s Budget & Finance (B&F)
        Section and an inadequate accounting system which is unable to provide timely financial
        information.

Our most important recommendations call for the Assistant Secretary and Director General of
US&FCS to:

1.      Coordinate the renegotiation of the MOU between US&FCS and AIT to include
        requirements and mechanisms that will allow both organizations to:

        l       Identify and actively pursue the information necessary to determine whether AIT
                is attempting to fully fund the Commercial Section.
        l       Clearly identify which positions are to be paid for by US&FCS.
        l       Agree on a schedule of associated and administrative support costs that are to
                be covered by reimbursable agreements. US&FCS should develop a mechanism
                for systematically reviewing these charges.
        l       Include specific guidance for billing and payment terms associated with the MOU.
                The revised guidance should include references to the type of support
                documentation that must accompany billings and the extent to which payment, in
                the absence of such support documentation, will or will not be made.

2.      Implement a personnel placement strategy that promotes a wider range of experience and
        appropriate language skills among the officers assigned to the AIT Commercial Section.

3.      Reevaluate the administrative and financial management structure of the Commercial
        Section in order to ensure that responsibility for day-to-day financial management is
        adequately performed and that appropriate supervision is maintained at all times. For
        senior Commercial Section staff, administrative training with respect to the
        implementation and monitoring of internal control procedures should be provided.

4.      Reevaluate pricing policies to be in conformance with departmental cost recovery
        guidelines as they relate to trade events and business facilitation services.

                                                -iv-
U.S. Department of Commerce                                                    Final Report BTD-10220
Office of Inspector General                                                                March 1999

5.      Implement procedures to ensure that appropriate cuff records regarding all accounting
        transactions are maintained, including summaries by event along with running balances of
        collections and expenditures.

6.      Implement procedures to ensure that appropriate information is being maintained to
        perform periodic reconciliations to AIT’s Budget and Finance (B&F) section and State
        Department reports in order to confirm that all transactions generated at post are being
        captured in the RAMC 60 and 62 “Status of Funds” reports.

                                              *****

In its reply to our draft report, US&FCS stated that it has taken steps to address all but two of
our recommendations, and provided a rationale for those with which it disagreed or sought
additional information. In each case, we have responded to US&FCS’s proposed actions or
their rationale for disagreeing with the finding and recommendation. US&FCS identified a
number of steps it has already taken to implement the recommendations. These include the
following: (1) amending the memorandum of understanding with the AIT and revising MOU
language for more specificity; (2) developing an island-wide trade promotion program targeted
for U.S. small and medium-sized enterprises; (3) reviewing the AIT Trade Center facility to
make better use and improve the appearance of the facility; (4) taking a number of measures to
improve the internal control environment; and (5) improving access to better communication
and technology capabilities that will increase the effectiveness and efficiency of the
Commercial Section.

We appreciate the commitments made by US&FCS to seek direct funding from Congress for
commercial operations in Taiwan. We encourage US&FCS to pursue this funding course and, at
the same time, seek further revisions, amendments and enforcement of the MOU with AIT. We
are reiterating our recommendations without change in the final report. Summaries of
US&FCS’s response for each set of findings and recommendations are on pages 13, 25, and 37,
and we have attached US&FCS’s complete response to the report.




                                                -v-
U.S. Department of Commerce                                                          Final Report BTD-10220
Office of Inspector General                                                                      March 1999

                                           INTRODUCTION

Pursuant to the authority of the Inspector General Act of 1978, as amended, and the
requirements of the Omnibus Trade and Competitiveness Act of 1988 and the Export
Enhancement Act of 1992, the Office of Inspector General conducted a performance audit of the
American Institute in Taiwan (AIT) Commercial Section and its related functions. Field work
was conducted from September 29 through October 3, 1997.

Performance audits are objective and systematic examinations of an organization, program,
activity, or function in order to provide information to improve accountability and facilitate
decision-making by parties with responsibility to oversee or initiate corrective action. By
identifying systemic strengths and weaknesses, the Office of Inspector General (OIG) will help
the Department’s managers implement more efficient and effective operations to better serve the
Department’s customers.

We discussed our observations with the AIT/Taiwan Director and held an exit conference with
the AIT Senior Commercial Officer (SCO) and the United States and Foreign Commercial
Service (US&FCS) Regional Director for East Asia-Pacific on October 3, 1997. During our exit
with the SCO, he noted his general agreement with the findings and recommendations presented
in this performance audit report.

                                       PURPOSE AND SCOPE

The purpose of this performance audit was to evaluate the effectiveness of the Department’s
operations in Taiwan, primarily carried-out and implemented through the Commercial Section’s
offices located in the cities of Taipei and Kaohsiung.2 The objective of the review was to review
AIT’s financial management system, internal control environment, and the role the post is
playing in delivering US&FCS products and services and participating in major policy and
program initiatives, plus its affect on developing U.S. exports.

In conducting our audit, we placed primary emphasis on the following areas:

l       General management and organization

l       Program activities and performance measurement

l       Internal control environment



        2
        The OIG discloses that audit team members formerly worked for ITA; however, they had no material
involvement with AIT operations.

                                                    -1-
U.S. Department of Commerce                                                 Final Report BTD-10220
Office of Inspector General                                                             March 1999

We reviewed the policies, procedures, and practices being implemented by the AIT Commercial
Section to determine if it is effectively and efficiently meeting its mission: to assist U.S.
companies, particularly small and medium-size enterprises, with export assistance. We also
determined whether the AIT Commercial Section’s goals and objectives are being achieved, and
are in line with US&FCS objectives. In addition, we evaluated the effectiveness and efficiency
of operations and assessed their compliance with applicable laws, regulations, and procedures.

In accordance with General Accounting Office’s Standards for Internal Controls in the Federal
Government, we reviewed the agency’s internal control environment relating to administrative
and financial management. We conducted extensive testing to achieve our objective of
determining the effectiveness of administrative and financial management controls.

More specifically, we tested the AIT Commercial Section’s operations for compliance with
GAO’s Policy and Procedures Manual for Guidance of Federal Agencies and the Federal
Managers’ Financial Integrity Act of 1982 requirements. Due to the relative lack of computer-
generated data at AIT, we did not rely extensively on this data to draw our conclusions
concerning internal controls. Data that was available was used to draw some conclusions about
AIT’s internal controls; however, we did not test the reliability of the data or the underlying
computer systems.

Instead, the report findings and recommendations draw upon significant tests of records;
physical evidence; documentary evidence, including accounting records and memorandums;
and analytical evidence based on the data obtained. We also conducted interviews with
Department personnel, clients, and other organizations involved in trade promotion. The audit
involved an extensive review of programmatic, management, administrative, and financial
issues.

The audit also considered ITA’s headquarters and domestic office activities and AIT
Washington, D.C. office activities that are coordinated and implemented with its Commercial
Section. The audit was conducted in accordance with generally accepted government auditing
standards and was performed under the authority of the Inspector General Act of 1978, as
amended, and Department of Commerce Organization Order 10-13, dated May 22, 1980, as
amended.

                                       BACKGROUND

TAIWANESE MARKET

The “Chinese Economic Area,” which includes China, Hong Kong, and Taiwan, is the biggest
of the “big emerging markets,” equal to the seventh largest economy in the world and
constituting the third largest trading partner for the United States. Taiwan, an important


                                               -2-
U.S. Department of Commerce                                                        Final Report BTD-10220
Office of Inspector General                                                                    March 1999

component of the Chinese Economic Area, has a high per capita gross domestic product, low
inflation, full employment, and a robust growth rate, but is natural-resource poor and is reliant
upon imports to meet its domestic consumption and industrial needs. These factors, combined
with a growing trend toward economic liberalization, mean continued opportunities for
American businesses.

Over four decades, Taiwan transformed itself from an underdeveloped, agricultural island to an
economic power that is a leading producer of high-technology goods. Taiwan has moved from
being a recipient of U.S. aid in the 1950s and early 1960s to an aid donor and major foreign
investor, especially in Asia.

Taiwan is the world's 13th largest economy with the world’s third largest foreign exchange
reserves and $220 billion in two-way trade. The Taiwanese economy is expanding at a 6
percent annual rate while maintaining full employment and low inflation. Taiwan's high level of
imports —$101 billion in 1996 — reflects its status as a resource-poor trading entity. The
island imports nearly all of its energy needs, most of the raw materials needed to maintain
industrial production, and a wide range of manufactured and agricultural goods.

Taiwan is the United States’ seventh largest export market and the United States remains
Taiwan’s largest overall trading partner. In 1997, U.S. exports totaled almost $22 billion while
the U.S. imports from Taiwan were valued at more than $29 billion.

In recent years, U.S. economic dealings with Taiwan have focused on expanded market access
for American goods and services. AIT has been engaged in a series of trade negotiations that
have focused on protection of intellectual property rights, and issues relating to Taiwan's
accession to the World Trade Organization (WTO), as well as other market access issues.
Taiwan's bid to join the WTO and its desire to become an Asia-Pacific "regional operations
center" are spurring economic liberalization moves. In 1991 Taiwan, under the name "Chinese
Taipei," became a member of the Asia-Pacific Economic Cooperation (APEC)3 forum, of which
the U.S. is also a member. While significant portions of its economy are still in public sector
hands, Taiwan is moving steadily toward liberalization and is continuing to reduce tariff and
non-tariff barriers to imports.

THE AIT COMMERCIAL SECTION

On January 1, 1979, the United States recognized the Government of the People’s Republic of
China as the sole legal government of China and acknowledged the Chinese position that there
is but one China and Taiwan is part of China. Therefore, official diplomatic recognition shifted


        3
         Asia-Pacific Economic Cooperation (APEC) was formed in 1989 in response to the growing
interdependence among Asia-Pacific economies to advance economic dynamism and a sense of community.

                                                   -3-
U.S. Department of Commerce                                                             Final Report BTD-10220
Office of Inspector General                                                                         March 1999

from Taipei to Beijing. However, Taiwan continues to enjoy Export-Import Bank financing,
Overseas Private Investment Corporation guarantees, most-favored-nation (MFN) status, and
ready access to U.S. markets. To maintain commercial ties with Taiwan, President Carter signed
the Taiwan Relations Act into law, and the American Institute in Taiwan (AIT) was established
shortly after in April 1979. AIT is a nonprofit, private corporation that undertakes a wide range
of activities representing U.S. interests, including commercial services, economic and political
reporting, agricultural sales, travel services, cultural exchange, and military sales. AIT has
locations in Taipei, a branch office in the city of Kaohsiung in southern Taiwan, and a
headquarters office located in Arlington, Virginia. AIT, while not an embassy, functions very
similar to an embassy.

The AIT Commercial Section receives most of its funding through AIT (which receives funds
through the Department of State) and a portion through the Department of Commerce under the
terms of a Memorandum of Understanding (MOU). It operates similar to other US&FCS
overseas post in terms of delivery of US&FCS products and services to U.S. exporters.

The Omnibus Trade Act of 1988 requires AIT to staff the Commercial Section commensurate
with the US&FCS post in Seoul, Korea. At the time, AIT did not have the financial resources to
fully staff its Commercial Section and it entered into an MOU in July 1990 with US&FCS under
which additional positions would be funded by US&FCS through reimbursement. To the extent
that AIT promised in each successive MOU to seek funding from US&FCS for the additional
positions, the MOU reflects an interim arrangement that appears to have become semipermanent.
The current MOU was signed by US&FCS and AIT/Washington in May and June 1997.
Pursuant to the MOU arrangement, AIT pays the majority of the Commercial Section’s costs,
while US&FCS agrees to fund certain positions and associated costs.

AIT is also unique in terms of the status of officers assigned to its operations by the Department.
US&FCS Commercial Officers assigned to the Commercial Section must resign and then
become employees of AIT, although they have reemployment rights with US&FCS.

The AIT Commercial Section ranks sixth on the US&FCS Overseas Resource Allocation Matrix
(ORAM) out of 69 posts.4 The Commercial Section operates in two cities in Taiwan -- the main
office is located in the Taiwan World Trade Center in Taipei, and a second office is located in
the port city of Kaohsiung in southern Taiwan. The main office in Taipei is where most
commercial activity occurs. Six of the seven Commercial Officers and 19 of the 21 Foreign
Nationals (FNs) are located in Taipei. The Commercial Section’s Trade Center facility is located
on the seventh floor of the Taiwan World Trade Center in Taipei. The Trade Center has
facilities which the Commercial Section and its clients utilize for trade and product promotion,
technical seminars, training programs, and hospitality events.

        4
            The ORAM is a US&FCS tool to guide management in overseas resource allocation decision making .

                                                       -4-
U.S. Department of Commerce                                                             Final Report BTD-10220
Office of Inspector General                                                                         March 1999

In FY 1997, total operating funds for the Commercial Section were $2,058,322, including
reimbursables for the United States-Asia Environmental Partnership (U.S.-AEP) program.5 The
reimbursable portion paid by US&FCS for the AIT Commercial Section consumes less than 1
percent of the total overseas budget of the US&FCS.




        5
          The United States-Asia Environmental Partnership is an interagency program led by the U.S. Agency for
International Development. Established in 1992, the program is designed to assist in addressing environmental
degradation and sustainable development issues in Asia and the Pacific. U.S.-AEP technical representatives are
located in 10 Asian posts to facilitate implementation of the program’s activities.

                                                      -5-
U.S. Department of Commerce                                                   Final Report BTD-10220
Office of Inspector General                                                               March 1999

                              FINDINGS AND RECOMMENDATIONS

During our audit, we found notable strengths in several areas. At the same time, we also
identified weaknesses. Management should address several areas of concern in order to increase
the quality and productivity of the AIT program. In addition, improvements in internal controls
are needed to ensure timely recording of financial transactions and to safeguard assets.
We have categorized our findings and recommendations into three broad areas:

l       General management and organization

l       Program activities and performance measurement

l       Internal control environment

I.      GENERAL MANAGEMENT AND ORGANIZATION

Progress in the management and organizational structure in the AIT Commercial Section has
been made, but improvements are still needed. The SCO has made organizational changes that
have resulted in improved operations, as well as a motivated and productive staff. The
Commercial Section has fostered a positive atmosphere around its operations, maintaining
strong, productive relations with its clients, multiplier organizations and other AIT agencies.

Nevertheless, additional improvements are needed. The relationship among the Commercial
Section, the Department of Commerce, and AIT/Washington, embodied in the Memorandum of
Understanding between AIT and US&FCS, needs improvement. Furthermore, inexperienced
Commercial Officers and inadequate Chinese language skills among many of the officers
hamper the effectiveness of the operation. In addition, management weaknesses in trade
promotion leadership and the U.S.-AEP program need to be addressed.

A.      MOU Between US&FCS and AIT Is Unclear and Ineffective

We found that the MOU between US&FCS and AIT does not contain clear terms or conditions,
resulting in disputes over positions covered and associated costs to be reimbursed and potentially
improper payments. In addition, US&FCS has not adequately monitored the agreement to
followup on the clause requiring AIT to find a permanent source of funding to replace US&FCS’
temporary funding of AIT Commercial Section positions. Therefore, a temporary arrangement
has continued for over seven years, with no resolution planned.




                                               -6-
U.S. Department of Commerce                                                  Final Report BTD-10220
Office of Inspector General                                                              March 1999

MOU Terms and Conditions Need Clarification

The MOU terms and conditions do not clearly identify (1) the number of positions US&FCS is to
fund for AIT’s Commercial Section, (2) specify what associated costs will be reimbursable, or (3)
require adequate billing documentation be submitted with each request for payment. In effect,
US&FCS does not know what it is paying for or whether its reimbursement to AIT is reasonable
and justified. Until recently, US&FCS has made little effort to manage the agreement or to
address the flaws in the terms and conditions.

The MOU does not clearly identify reimbursable positions and is considered vague or unclear
by US&FCS and Commercial Section officials. This lack of position identification has become
a point of disagreement between all the parties involved. AIT/Washington and AIT/Taiwan
officials do not agree as to which positions are the responsibility of AIT and US&FCS,
respectively. For example, correspondence from the Executive Director of AIT/Washington
refers to certain commercial officer positions to be reimbursed by Commerce, but statements by
the AIT/Taiwan General Services Officer to the OIG during our review cited different positions
to be covered by Commerce under the MOU. The SCO agreed and stated that the MOU does
not define which positions are to be covered. Clearly, there is no consensus among the parties
on which positions are to be covered by AIT and which are to be reimbursed by Commerce.

In addition, US&FCS and AIT disagree over the nature of costs associated with the MOU for
which US&FCS is responsible. Reimbursable costs are defined in the MOU as all associated
and administrative support costs, including salary, benefit allowances, travel, housing, furniture
and furnishings, and equipment and supplies. Under the MOU, US&FCS is charged for direct
salary costs and has also been charged an annual $55,496 fee for administrative support. The
MOU does not specify how this overhead charge is calculated nor has AIT ever provided the
details to support this figure. Correspondence between US&FCS and AIT shows that there is no
consensus as to how certain charges should be treated. For example, matters such as whether
the administrative support cost could be prorated were not provided for in the MOU and
therefore had to be negotiated.

As a result of the ambiguity of the agreement, AIT has also attempted to include charges that are
not clearly defined as reimbursable or has not adequately supported its billings with
documentation. For example, the budget reflected charges for market promotion, maintenance
and repair, and household furnishings. The SCO argued that market promotion expenses are
paid for out of corresponding trade event collections, and in the past have never been considered
a reimbursable cost. With respect to the latter two charges, the SCO argued that they were
already included in the administrative support fee. It would appear that AIT may be double
billing US&FCS for these expenses.




                                               -7-
U.S. Department of Commerce                                                Final Report BTD-10220
Office of Inspector General                                                            March 1999

US&FCS has made payments to AIT under the MOU without adequate billing documentation to
determine accuracy. US&FCS received a January 10, 1997, request from AIT to remit 50
percent of the estimated total FY 1997 reimbursable costs. Having made certain adjustments to
these estimated charges, US&FCS remitted its payment to AIT on July 9, 1997. US&FCS did
not have detailed fiscal information for FY 1996 or FY 1997 when this payment was made.
While US&FCS management acknowledged that it did not have detailed support documentation
for these charges, this payment was described as a good faith effort. In September 1997,
US&FCS paid the remaining balance of the charges that it agreed fell under the reimbursable
agreement. In addition, in September 1997, US&FCS disputed charges totaling $119,000 from
AIT, citing disagreement over which positions are to be covered and the fact that the billing
contained no detail or documentation to support this figure.

In effect, US&FCS made payment without knowing whether the AIT charges were legitimate.
While AIT believes that its new financial management system will provide more and better
financial information to US&FCS, the terms for payment are not specific enough in the current
MOU. We believe that no payments should be made without detailed financial information.
Without such documentation, US&FCS cannot adequately ensure that it is paying for
appropriate items.

In a separate inspection, our office has found that ITA lacks formal written guidelines for
undertaking agreements such as MOUs. Without guidelines for executing agreements, ITA is
vulnerable in many ways as is demonstrated in the subject MOU. We will address this issue in a
separate report and will recommend that ITA develop policies and procedures that address key
elements in the agreement process: completeness of content; budgetary, procurement, and legal
reviews; and full cost recovery.

We believe that contributing to the disagreements concerning positions and costs under the MOU
is the absence of meaningful communication between parties to the MOU. For example, while
correspondence from the SCO to US&FCS indicates that the SCO was concerned with a number
of MOU-related issues, he stated that his input was ignored for more than two years by the
previous US&FCS Regional Director and he was not substantively involved in drafting the
MOU signed in June 1997. US&FCS headquarters officials also noted the poor communication
between the organizations, the need to improve relations with AIT and the lack of information
flow from AIT concerning its commercial operations, which is the basis for the MOU. AIT
officials in Washington noted that there was disagreement between themselves and US&FCS
concerning position coverage, billing terms and there were problems in overall relations
between the organizations.




                                              -8-
U.S. Department of Commerce                                                          Final Report BTD-10220
Office of Inspector General                                                                      March 1999

Full Funding for AIT Not Resolved

US&FCS did not aggressively monitor the terms of both the agreement and the needs of the
Commercial Section. As noted above, the MOU states that US&FCS will be absolved of its
funding responsibilities when AIT receives full funding (through the State Department) for the
Commercial Section. The MOU between US&FCS and AIT, however, continued for seven years
with no US&FCS evaluation of the extent to which AIT is seeking additional funding. The MOU
did not require AIT to request full funding for the Commercial Section, nor did it explain how
AIT and/or US&FCS will monitor steps taken to meet this objective. Having made no attempt in
the past to monitor AIT’s funding requests, US&FCS continued to finance an agreement which
was designed to be temporary.

US&FCS adopted a “laissez faire” attitude toward the MOU. US&FCS senior management
indicated that, since US&FCS gets a fully operational Commercial Section at a fraction of its full
cost, a less aggressive stance when negotiating with AIT is appropriate.6 The SCO suggested
that AIT’s MOU negotiating strategy may assume that US&FCS does not consider the MOU
arrangement to be a high priority, given the small amount of US&FCS money involved in
supporting the Commercial Section (relative to the entire US&FCS budget). To the extent that
the SCO has already warned US&FCS that AIT will likely attempt to shift more of its costs to
client agencies, the passive US&FCS approach does not adequately consider the long-term
opportunity cost to US&FCS of future staff time spent negotiating issues that could be clearly
defined in the MOU.

We believe that the flaws in the MOU require the parties to renegotiate it as soon as practicable.

B.      Officers’ Inexperience Limits Potential Success of Operation

With the exception of the SCO, all of the Commercial Officers in Taipei are serving in their first
overseas assignment. In addition, according to the SCO, four of the seven officers lack adequate
Chinese-speaking skills. This is due to the transfer of several qualified officers from Taiwan to
mainland China prior to the SCO’s arrival in Taipei. Commercial Section management, staff, and
partner organizations agree that the current officers’ poor language skills and inexperience
hamper their effectiveness in the field.




        6
         The total paid by US&FCS for FY 1997 for the Commercial Section (inclusive of U.S.-AEP) equaled
$588,322 (based on September 30, 1997 letter from US&FCS to AIT/Washington). This represented
approximately 29 percent of the total costs of the Commercial Section.

                                                    -9-
U.S. Department of Commerce                                                    Final Report BTD-10220
Office of Inspector General                                                                March 1999

Officers possess limited field experience

According to the SCO and Deputy SCO (DSCO), the environment and the complexity of the
market make Taiwan a difficult first assignment for a non-Chinese-speaking officer. The
personnel placement strategy of US&FCS management has not accounted for this condition.
Instead, US&FCS has continued to assign junior officers to the Taipei office, despite the fact that
qualified officers have applied for the post. While the SCO has made a concerted effort to
broaden the exposure of his staff, leading the junior officers on a series of visits that introduced
them to key contacts in their sectors, he has acknowledged that the output of the Commercial
Section could be higher with more experienced officers.

Partner organizations have also questioned whether the Commercial Section staff is experienced
enough to positively affect business opportunities for American firms and stressed the need for
more high-level contacts between the Commercial Section and the Taiwanese government. To
establish these contacts and extend outreach, we believe that additional field experience among
the officers is necessary.

Officers lack adequate language skills

Exacerbating the problem created by the lack of experience among the officers, US&FCS
management has assigned personnel with inadequate Chinese-speaking skills. All but one of the
officer positions in Taiwan are language-designated. Similar to mainland China, English is not
widely spoken by the local business community. As a result, it is exceedingly difficult for the
junior officers to foster relationships that create opportunities for U.S. companies. To expand
such opportunities and perform effective trade promotion, the language-speaking capabilities of
the officers must significantly improve.

C.      Key Areas Need Management Improvements

Vacancies in the leadership of key functional areas are negatively impacting the operational
effectiveness of the Commercial Section’s trade promotion efforts. Specifically, we believe that
the areas of trade promotion and the U.S.-AEP program require special management attention.
In addition, inadequately trained personnel in the Commercial Section’s administrative and
financial areas have resulted in a high-risk environment.

Trade promotion function is inadequately staffed

Despite repeated requests from the post, US&FCS management has not filled the trade
promotion coordinator position with an experienced officer for more than two years. In the



                                                -10-
U.S. Department of Commerce                                                     Final Report BTD-10220
Office of Inspector General                                                                 March 1999

absence of such an officer, however, the SCO has not adjusted the office structure to address the
deficiency in this vital program area.

Under the current organizational structure of the Commercial Section, the staff member in charge
of trade events and trade promotion coordination is a temporary employee. Though both the
SCO and several officers made special note of the time and effort contributed by this individual,
he has no prior experience in trade promotion, and management has not provided him with
sufficient training. Exacerbating the problem, the Commercial Section lacks an effective
countrywide trade promotion plan or a Commercial Section-partner organization joint marketing
strategy to guide these operations. The end result is a trade events program that is not as effective
as it could be. We believe this approach negatively impacts the level of service that Commercial
Section clients receive and has resulted in a low number of success stories generated by the
Commercial Section (see page 19 for further detail on this issue).

Inadequate language skills and market knowledge hampering
United States-Asia Environmental Partnership program

The market for environmental technology products in Taiwan is the third largest in Asia, and thus
presents major opportunities for companies in the environmental sector. Though the U.S.-AEP
program was set up, at least in part, to assist U.S. firms in this industry, the technical
representative who leads the program does not possess the language skills, local market
knowledge, or contacts necessary to actively monitor market developments.

Though U.S.-AEP has achieved success stories, several U.S. state trade promotion offices
complained that the technical representative is not attentive to the ever-changing industry
regulations, and is unable to identify developing opportunities for U.S. companies. According to
these offices, the successes that American environmental firms achieve are largely the result of
market conditions, rather than effective promotion and outreach from the U.S.-AEP office.

The SCO has acknowledged U.S.-AEP’s need to expand outreach efforts and establish a greater
number of industry contacts. The technical representative’s inability to speak Chinese will make
the SCO’s involvement in this process essential. We believe greater management participation is
also necessary to bring higher visibility to the U.S.-AEP program in Taiwan and to restore the
program’s reputation with partner organizations.

Administrative/financial operations of the Commercial Section
are inadequately staffed and managed

The Commercial Section does not have adequately trained and experienced personnel operating
and managing its administrative and financial operations. While we did not find any evidence of


                                                -11-
U.S. Department of Commerce                                                 Final Report BTD-10220
Office of Inspector General                                                             March 1999

3.      Ensure that the US&FCS assigns a permanent trade events officer to the post.

4.      Ensure that the AIT Commercial Section develops a countrywide trade promotion plan
        by April 1999.

5.      Instruct the Commercial Section to develop a plan by April 1999 for improving the U.S.-
        AEP program and expanding outreach efforts of the technical representative.

6.      Reevaluate the administrative and financial management structure of the Commercial
        Section in order to ensure that responsibility for day-to-day financial management is
        carried out by adequately trained personnel and that appropriate supervision is
        maintained at all times. For senior Commercial Section staff, administrative training
        with respect to the implementation and monitoring of internal control procedures should
        be provided.

US&FCS’s Response to Draft Report and OIG Analysis

US&FCS agrees with, or has taken action consistent with, all of the OIG recommendations in
this area. US&FCS reports that they have achieved close to full staffing of the Commercial
Section in Taiwan, an improvement over what the OIG observed a year ago.

A summary of US&FCS’s position on each recommendation, as stated in the draft report, is
presented with OIG comments on the US&FCS response.

Recommendation #1:

Coordinate the renegotiation of the MOU between US&FCS and AIT to include terms and
conditions that clearly:

        l       Agree on a timeframe for AIT to fully fund the Commercial Section.
        l       Clearly identify which positions are to be paid for by US&FCS.
        l       Agree on a schedule of associated and administrative support costs that are to
                be covered by reimbursable agreements. US&FCS should systematically review
                these charges.
        l       Include specific terms for billing and payment terms associated with the MOU,
                including the type of support documentation that must accompany billings.




                                              -13-
U.S. Department of Commerce                                                   Final Report BTD-10220
Office of Inspector General                                                               March 1999

US&FCS Response (in order of the recommended terms and conditions):

        (1) US&FCS has long sought to heighten and specify AIT’s commitment to the
        Commercial Section. AIT has always claimed to be underfunded and, in the past
        year, has claimed that it cannot continue to support the costs of the commercial
        and agricultural sections in Taiwan. While Congress’s funding has increased
        recently, we suspect that the amount dedicated by AIT to the Commercial Section
        is less than Congress intended. US&FCS is therefore pursuing two options:
        (1) seeking direct funding from Congress and OMB (yielding to AIT’s claim of
        underfunding), (2) while continuing to challenge AIT’s contention, and pressing for a
        base transfer of funds, supplemented by a US&FCS contribution.

        (2) The current MOU identifies the positions which each organization is
        responsible to fund. One of the positions is under dispute (the executive officer),
        and AIT refuses to discuss updating the MOU as proposed by US&FCS.
        US&FCS will continue to seek resolution of this matter.

        (3) AIT has undertaken a review of the administrative costs charged to other
        agencies, including US&FCS. US&FCS will examine the new schedule closely
        before agreeing to it. US&FCS will seek a reimbursable agreement, appended to
        a revised MOU, identifying the charges and agency obligations.

        (4) AIT has implemented, after much delay, a new accounting system, and
        US&FCS looks forward to the first billing. While the current MOU seems to
        adequately address this issue, US&FCS will include more specific language
        relating to the billings in a revised MOU.

OIG Comment: We concur with US&FCS’s response to our recommendation. We are
encouraged by the initiative to address the MOU in greater detail and include all parties in the
negotiations.


Recommendation #2:

Ensure that US&FCS and the AIT Commercial Section develop a system to verify the validity
of MOU billing statements.

US&FCS Response: US&FCS agrees that AIT’s inability to produce final figures led to
US&FCS making payments on the basis of estimates rather than actual invoices. US&FCS was
reluctant to hold AIT hostage for its shortcomings; AIT would then threaten to suspend services.



                                               -14-
U.S. Department of Commerce                                                   Final Report BTD-10220
Office of Inspector General                                                               March 1999

This practice, though flawed, appeared acceptable as long as the estimates were in line with
anticipated costs. US&FCS headquarters and the Commercial Section will follow Departmental
guidelines and good judgment to validate or reject the new billing statements.

OIG Comment: We are encouraged that US&FCS will follow Departmental guidelines to
validate or reject future billing statements. We look forward to more specificity pertaining to
our recommendation in the US&FCS audit action plan.


Recommendation #3:

Ensure that the US&FCS assigns a permanent trade events officer to the post.

US&FCS Response: US&FCS concurs that the trade promotion function merits a full-time
officer, but US&FCS has very few such officers who are experienced and Chinese-fluent. The
solution, which has worked satisfactorily, has been to hire extremely capable local candidates
under the SCO’s supervision. US&FCS believes it is effective until a suitable career officer
becomes available.

OIG Comment: We appreciate the difficulty in hiring an officer with the appropriate
background. Nevertheless, the importance of the Taiwanese market should make this a top
priority for US&FCS. Therefore, we reiterate our recommendation included in the Draft Report.


Recommendation #4:

Ensure that the AIT Commercial Section develops a countrywide trade promotion plan by April
1999.

US&FCS Response: US&FCS acknowledges that at the time of the OIG visit, the trade
promotion program was not working at full capacity because the PCO position in Kaohsiung
had been vacant for an extended period. US&FCS now has an island-wide program. AIT
maintains offices in Taipei and Kahsiung. The main office is located in the Taipei World Trade
Center, owned by the China External Trade Development Association (CETRA). CETRA
manages the major exhibitions in which the Commercial Section participates and promotes AIT
events throughout the island. US&FCS will look for additional promotional opportunities.

OIG Comment: We concur with US&FCS’s response to our recommendation and we are
encouraged that the post is developing and implementing a more comprehensive trade
promotion program.



                                               -15-
U.S. Department of Commerce                                                  Final Report BTD-10220
Office of Inspector General                                                              March 1999

Recommendation #5:

Instruct the Commercial Section to develop a plan by April 1999 for improving the U.S.-AEP
program and expanding outreach efforts of the technical representative.

US&FCS Response: At the time of the OIG visit, the technical representative had been on the
job for only five months. Since that time, he has had thirteen additional months of intense on-
the-job training, which has eliminated many problems. He has prepared a “Taiwan
Environmental Market Summary,” appeared at numerous trade conferences and events, and
established high-level contacts that are invaluable in helping U.S. companies. In his first full
year on the job, the USAEP-Taiwan office recorded $30 million worth of sales for SMEs, 150
percent greater than for the previous four years combined. The technical representative has
written a comprehensive FY 1999 work plan for the office that has drawn high praise for its
ambition and depth from several agencies and organizations.

OIG Comment: We concur with US&FCS’s response to our recommendation.


Recommendation #6:

Reevaluate the administrative and financial management structure of the Commercial Section
in order to ensure that responsibility for day-to-day financial management is carried out by
adequately trained personnel and that appropriate supervision is maintained at all times. For
senior Commercial Section staff, administrative training with respect to the implementation and
monitoring of internal control procedures should be provided.

US&FCS Response: The OIG team recognized that there is no sign of mismanagement or
wrongdoing within the Commercial Section’s internal financial operation. It also made it clear
that the DSCO and administrative assistant need extensive training to avoid poor practices and
reduce the risk of error. US&FCS agrees on that need and is arranging for training. Still, as a
privately-run corporation operating under State Department guidelines, AIT operates many of its
accounting responsibilities and functions, not the Commercial Section, as stated in the report.
Budgetary and contracting authority is exercised by the AIT, so the Commercial Section’s
power is comparable to that of a Class-B subcashier.

OIG Comment: We concur with US&FCS’s response to the recommendation and look forward
to the training plans to be presented in the audit resolution plan.




                                              -16-
U.S. Department of Commerce                                                    Final Report BTD-10220
Office of Inspector General                                                                March 1999

II.     PROGRAM ACTIVITIES AND PERFORMANCE MEASUREMENT

The Commercial Section has been successful in the delivery of US&FCS products and services,
although there are areas that need improvement. The Commercial Section is producing a high
volume of quality research products and timely services for its clients. We also noted a high
level of client satisfaction with the products and services.

However, we found that the post is devoting significant time and resources to trade policy
matters at the expense of its trade promotion program. In fact, the Commercial Section is
leading AIT’s efforts on a number of trade policy issues. This attention to trade policy is
manifested in the relatively low level of attention devoted to its Trade Center—the most public
and visible component of its operations. The Trade Center facility and materials on display
appear dated, and the center is kept closed except for brief periods when it is used by clients. In
addition, the Commercial Section’s pricing policy for services provided to the U.S. business
community, as well as for trade events, needs immediate review to bring the pricing policy into
compliance with departmental guidelines.

In addition, while the Commercial Section has generated a high dollar figure of success stories,
the number of success stories is small and reflects too many large company, advocacy-related
projects. Insufficient attention is being paid to programs that assist small and medium-sized
companies. Finally, the Commercial Section is providing inadequate support for BXA’s
licensing and shipment needs by not responding in a consistently timely manner and not
following requirements for on-site verifications.

A.      Post Heavily Engaged in Policy Matters at the Expense of Trade Promotion

The AIT Commercial Section is heavily involved in policy matters and has, in fact, taken the
lead on some policy issues for AIT’s Economic (ECON) Section. While we acknowledge that
important work on market access and trade barrier issues cannot be divorced from pure trade
promotion work, we maintain that, under the Omnibus Trade and Competitiveness Act of 1988
and the Export Enhancement Act, AIT’s principal function as an agent of US&FCS is to carry
out trade promotion functions. We believe trade promotion activities should be the primary
focus of the AIT Commercial Section, and this critical function should receive more resources.
We noted the following evidence concerning the Section’s role in trade policy matters:

l       The Commercial Section is taking the lead on trade policy issues in the areas of
        telecommunications, pharmaceuticals, government procurement, liberalization issues,
        and health care reform.




                                               -17-
U.S. Department of Commerce                                                   Final Report BTD-10220
Office of Inspector General                                                               March 1999

l       US&FCS headquarters regional management described the Commercial Section as fully
        involved in many policy issues.

l       The Commercial Section’s FY 1997 Strategic Commercial Plan is heavily tilted toward
        describing the Section’s goals in terms of trade policy initiatives and, in comparison,
        describes very little in terms of plans and goals concerning trade promotion activities.

l       Interviews with the Commercial Section’s management and staff found estimates of time
        spent on trade policy issues to range from 10 to 40 percent, with higher level and more
        experienced officers spending an even larger percentage of their time on policy matters.

The effect of concentrating significant resources of the Commercial Section on trade policy
issues is to have fewer resources available to augment trade promotion, which we earlier noted
as having inadequate resources. We acknowledge that there are significant trade issues affecting
the ability of U.S. firms to enter the Taiwanese market. However, we believe that it is the
responsibility of the AIT ECON Section to take the lead on trade policy issues and that the
Commercial Section must focus its attention on trade promotion activities.

B.      Post Is Not Focusing Sufficiently on Small and Medium-Sized Companies

Though the total dollar-value of the Commercial Service’s success stories is high, the actual
number of success stories for the AIT Commercial Section is low compared to commercial
offices in other Asian countries, such as Japan and Korea. A primary reason for this is that the
Commercial Section focuses much of its time and effort on assisting large, old-to-market
companies to secure big-dollar contracts through advocacy. By concentrating so heavily on these
projects, the Commercial Section is not achieving a high number of successes with small and
medium-sized firms.

During FY 1996, the Commercial Section reported 22 success stories that totaled $4.4 billion in
U.S. companies’ sales. In FY 1997, the Commercial Section achieved 31 success stories with an
estimated value of $3.1 billion in U.S. sales. In comparison with US&FCS Korea, which has
roughly the same staff size as Taiwan, there is an approximate equality of dollar figures in
success stories, but AIT has only about one-quarter of the number of success stories.

During FY 1996 and FY 1997, large companies represented over 40 percent of the success stories.
The multimillion, even billion, dollar contracts that these companies compete for usually require
long-term effort. Providing effective advocacy on these projects consumes a substantial amount
of the Commercial Section’s time. As a result, the Commercial Section spends less time
developing opportunities for small and medium-sized, new-to-market, and new-to-export firms.
We believe these companies have the greatest need for export and market guidance and could
benefit most from the Commercial Section’s products and services.

                                               -18-
U.S. Department of Commerce                                                     Final Report BTD-10220
Office of Inspector General                                                                 March 1999

In general, the International Trade Administration (ITA) stresses assisting small and medium-
sized enterprises over large enterprises. We believe such an approach is consistent with the intent
of Congress. According to the Export Enhancement Act of 1988, the basic purpose of US&FCS
is to promote the export of U.S. goods and services, particularly by small and medium-sized
businesses. The post should redirect more of its attention toward small and medium-sized
enterprises.

In addition, our interviews with the staff indicate that the Commercial Section does not
effectively follow up with small and medium-sized firms to ensure customer satisfaction.
According to the industry teams in the Commercial Section, this type of follow-up work takes
low priority on the scale of duties that are performed by staff members. The Commercial
Section’s lack of routine follow-up suggests that the office may be missing the successes of
satisfied customers.

C.      Trade Center Is Not Used Effectively as a Marketing Tool

The AIT Commercial Section maintains a Trade Center facility, essentially a conference/exhibit
room, on the seventh floor of the Taipei International Trade Center Exhibition Hall. The Trade
Center is adjacent to the office complex where the Commercial Section maintains its offices.
The first six floors of “storefront” space surrounding the Hall are used by local export-oriented
companies. The top floor is used by groups promoting imports to Taiwan. We noted offices
representing the trade interests of a large number of American states, such as Indiana, Arizona,
Hawaii, and Louisiana, and others representing foreign interests, such as Oman, Ireland, and the
Philippines.

The Trade Center facility is not used effectively as a marketing tool and may actually be
detrimental to the Commercial Section’s outreach and trade promotion activities. The Trade
Center’s competition—for example other countries who have facilities in the
building—maintain more visibly active and professional looking facilities than does AIT, and
by extension, the United States. The Trade Center is usually kept dark and locked, except
during the brief times it is being used by Commercial Section clients. It is not well integrated
with the rest of the Commercial Section’s operations. The furnishings and decor in the facility
appeared dated. Some of the materials that were on shelves lining the facility, such as
catalogues representing U.S. firms, also appeared to be dated. The facility does not compare
well with the attractive, lit, and inviting facilities representing other countries or U.S. states.




                                                -19-
U.S. Department of Commerce                                                              Final Report BTD-10220
Office of Inspector General                                                                          March 1999

Commercial Section management agreed that the Trade Center could use a “face-lift,” but also
stated that the necessary funds are not available. The SCO stated that he viewed the Trade
Center as an asset to give up should the Commercial Section be forced to take budget
reductions.

However, we believe that the Trade Center could fulfill a more critical and visible component of
the Commercial Section’s outreach program. Instead of using the Trade Center as an
expendable asset, the Commercial Section should put more emphasis and resources into fuller
utilization of the facility. The facility could contribute much more to the Section’s marketing
and outreach programs, leveraging multiplier partnerships, as well as hosting trade events,
conferences, and seminars.

D.      The Commercial Section Does Not Apply Federal and Departmental Guidelines
        Regarding Cost Recovery

We also found that cost recovery analyses related to Trade Center operations are not being
performed, nor is there a methodology in place to perform such analyses. As a result, revenues
from Trade Center events run the risk of not fully covering the expenses attributable to the
running the facility. Our analysis indicates that AIT is exceeding full cost recovery
requirements.

The Commercial Section consistently overcharges U.S. companies

The Commercial Section is consistently generating surpluses on trade events staged for U.S.
companies. Federal regulations state that collections must bear a close relationship to the cost of
the specific program activity undertaken. During FY 1995 - FY 1997, the Commercial Section
averaged a profit of 11.65 percent on trade events it sponsored. Profits on individual trade events
ranged from $5 to $27,745.7

For example, for the majority of FY 1997, the Commercial Section provided cubicle space in its
primary offices to a Gold Key participant. For what amounted to an 11-month sub-lease, the
Gold Key participant paid $47,515. Federal cost recovery guidelines require that business
assistance activities are to be self-sustaining and dedicated principally to the recovery of all
associated direct costs.8 While the Commercial Section incurred additional overhead expenses



        7
          Surpluses earned during FY 1997 were used to off-set Trade Center costs in our cost recovery
calculation.
        8
          US&FCS Operations Manual, Chapter 315.1, “Scheduling and Budget Procedures for Export Promotion
Activities,” 8/92.

                                                      -20-
U.S. Department of Commerce                                                                      Final Report BTD-10220
Office of Inspector General                                                                                  March 1999

(electricity, phone usage, and photocopying) associated with this arrangement, the primary cost
(the leasing cost per square foot) was unchanged, as this was a fixed cost. When comparing its
leasing cost per square foot ($1,510) to what it charged the Gold Key participant, we have
calculated that the primary fixed cost was recovered at a rate of more than 31 times the
Commercial Section’s costs.


                                                Profit on Trade Events
                                                  FY 1995 - FY 1997
              $30,000




              $20,000
     Profit




              $10,000




                       $0
                              1     2     3      4     5     6       7    8     9    10     11    12

The Commercial Section is not following cost recovery guidelines

The Commercial Section was unable to demonstrate that expenses generated by the Trade Center
were being recovered by facility revenues. According to Federal regulations, events staged at a
fixed U.S. Government facility should collectively recover all the facility’s costs, including
overhead costs.9 Based on our review, the Commercial Section is not maintaining or reviewing
cost and revenue information associated with Trade Center operations. Without this information
and a sound cost recovery methodology in place, an analysis of Trade Center cost recovery
cannot be performed and conformity with Federal regulations cannot be determined.
Commercial Section management explained this deficiency by stating that they were not aware
of the above-referenced cost-recovery requirement.

              9
                  31 U.S.C. Sec. 9701, “Fees and charges for Government services and things of value.”

                                                              -21-
U.S. Department of Commerce                                                               Final Report BTD-10220
Office of Inspector General                                                                           March 1999

Due to the significant trade event surpluses generated by the Commercial Section, as discussed
below, we determined that Trade Center expenses were being recovered, ending with a surplus of
more than $23,000.



                                     Trade Center Cost Recovery
                                                      FY 1997
                        $600,000


                        $400,000


                        $200,000


                               $0


                        ($200,000)


                        ($400,000)

                                     Collections                Event Specific Expenses

                                     Trade Center Overhead      Surplus/(Shortage)




However, without adequate planning, the Commercial Section cannot ensure that the Trade
Center will continue to recover the cost of its services or that it is not overcharging.

E.      The Commercial Section Needs to Broaden Its Focus

The Commercial Section is focusing its trade promotion efforts in Taiwan almost exclusively on
large companies in the Taipei area. In addition, according to staff interviewed, few of the officers
and FNs are involved in regional trade promotion activities. The reason for this is two-fold:
regional planning is minimal, and no regular line of communication exists with the US&FCS
domestic teams. We believe that a broader focus on trade promotion within the country, and
throughout the Asia-Pacific region, would boost operational effectiveness.

In-country approach caters to large firms

The Commercial Section focuses its trade promotion efforts in the Taipei area because most
companies with operations in Taiwan have administrative or representative offices in Taipei.


                                                        -22-
U.S. Department of Commerce                                                    Final Report BTD-10220
Office of Inspector General                                                                March 1999

This strategy caters more to the larger, old-to-market firms. Significant opportunities for small
and medium-sized companies in other Taiwanese markets often do not receive attention.

Specifically, during FY 1997, trade promotion and outreach to the Kaohsiung area in southern
Taiwan suffered as no significant services or products were generated by the Commercial
Section, due mainly to the absence of an officer in Kaohsiung. After the departure of the
previous officer in Kaohsiung, US&FCS management took eight months to place a new officer at
post.

Though the recently arrived Principal Commercial Officer has undertaken an ambitious outreach
program, we believe Commercial Section management could focus greater attention on
opportunities outside of Taipei. In particular, according to partner organizations and staff in
Kaohsiung, the U.S.-AEP program is neglecting the Kaohsiung area, despite a concerted effort by
Commercial Section Kaohsiung and those partner organizations to have U.S.-AEP broaden its
focus outside of the Taipei region. As a result, a booming market for environmental technologies
remains largely untapped by U.S. firms.

Efforts to develop regional opportunities should be expanded

Few regional opportunities outside Taiwan have been targeted and included in the Commercial
Section’s strategic planning process. Though the SCO has made efforts to initiate a common
strategy for the Chinese Economic Area (mainland China, Hong Kong, and Taiwan), little
emphasis has been placed on developing Asia-Pacific regional strategies. In addition, according
to our interviews, the staff’s contact with US&FCS domestic teams is sporadic. As a result, there
is no joint strategy development for common growth markets. Thus, potential U.S. exporters are
less aware of regional export opportunities.

Partner organizations have stressed the need for greater regional interaction to better service
export-ready firms with an interest in more than one Asian market. We believe that the
Commercial Section, in cooperation with regional management and the domestic teams, should
make a greater effort to use their successes as the basis for developing more regional trade
promotion opportunities. Such an approach is consistent with the National Export Strategy,
which intends for the more developed U.S. trading partners to serve as gateways to less
traditional markets in the region.

F.      Post Needs to Better Manage BXA-Related Responsibilities

BXA relies on US&FCS posts and AIT to assist in fulfilling its export control activities.
Specifically, BXA requests the posts to perform Pre-License Checks (PLCs) and Post-Shipment



                                                -23-
U.S. Department of Commerce                                                                Final Report BTD-10220
Office of Inspector General                                                                            March 1999

Verifications (PSVs) to verify the legitimacy of certain export transactions.10 However, we
found that the Commercial Section is not following required procedures in its role in supporting
the BXA’s requirements for PLCs and PSVs.

If not done timely, legitimate U.S. business transactions could be delayed or lost (in terms of a
PLC), or for a PSV, an untimely response could prevent BXA from taking action to interdict
diversion activity. Taiwan is considered a major diversion point internationally.

During FY 1997, a high percentage of all requests for support for PLCs/PSVs was not
completed and transmitted to BXA within procedural timeframes by the AIT Commercial
Section. We found that 64 percent of all PLCs and 75 percent of all PSVs were not completed
within established timeframes.11 AIT management stated that they had not done an adequate job
monitoring these activities and were not aware that there was a timeliness problem.

Furthermore, AIT/Kaohsiung allowed a contract employee to conduct PLCs during FY 1997, in
lieu of an American officer as required. We were told that this was during the period when no
Commercial Officer was present in Kaohsiung during FY 1997, but of the two PLCs that were
completed by the contract employee, both cables identified the contract employee as a
Commercial Officer, which tended to obscure the identity of who actually conducted the PLCs.
BXA officials advised that, with waiver, contract employees and/or FNs can conduct PLCs, but
always under the supervision of an American officer. In this case, neither requirement was met
by the Commercial Section.

                                         RECOMMENDATIONS

We recommend that the Assistant Secretary and Director General of US&FCS:

1.      Redirect the Commercial Section’s attention toward trade promotion activities and
        ensure that the Commercial Section develops a marketing strategy targeted toward small
        and medium-sized firms.

2.      Analyze the AIT Trade Center facility to determine if there are additional opportunities for
        utilization of the facility, to improve the marketing strategy and presentation of the



        10
           Pre-License Checks determine if an overseas person/firm is a suitable party to a future transaction
involving controlled U.S.-origin goods or technical data. Post-Shipment Verifications confirm whether goods
exported from the U.S. were received and are being used in accordance with the provisions of the export license.
        11
           PLCs need to be completed within 28 calendar days from receipt of the action cable from BXA. PSVs
are required to be completed within 60 calendar days from receipt of the action cable from BXA.

                                                      -24-
U.S. Department of Commerce                                                      Final Report BTD-10220
Office of Inspector General                                                                  March 1999

        facility, and to decide whether it would be beneficial to assign personnel to the facility on
        a full-time basis.

3.      Implement procedures to ensure that the SCO or DSCO reviews all revenues and
        expenses associated with operating the Trade Center, and develops a methodology to set
        surcharge fees related to achieving cost recovery.

4.      Reevaluate pricing policies to be in conformance with departmental cost recovery
        guidelines as they relate to trade events and business facilitation services.

5.      Explore opportunities to increase the number of trade events held in Taiwan outside the
        Taipei area, especially in Kaohsiung.

6.      Ensure that the AIT Commercial Section incorporates a regional focus into the strategic
        plan and develops regional initiatives that implement the National Export Strategy.

7.      Ensure that the Commercial Section monitor PLC and PSV workload so that timeliness
        is maintained.

8.      Ensure that contract employees do not conduct PLCs or PSVs, unless a specific waiver is
        granted by BXA. Ensure that, in cases where American officers do not conduct on-site
        visits associated with PLCs or PSVs, that this is clearly identified in AIT’s output.

US&FCS’s Response to Draft Report and OIG Analysis

US&FCS agrees with, or has taken action consistent with, all of the OIG recommendations in
this area. US&FCS, however, stated that while the overarching goal of the US&FCS is to
promote the export of U.S. goods and services, to carry out this mission US&FCS must be
prepared to make use of the entire spectrum of trade policy and traditional policy/trade
promotion activities. US&FCS believes that while the Commercial Section’s role in market-
access issues has been reduced due to the wrap-up of negotiations in February 1998, the
Commercial Section will continue to have a role to play in policy negotiations in support of U.S.
industry. A summary of US&FCS’s position on each recommendation, as stated in the draft
report, is presented with OIG comments on the US&FCS response.

Recommendation #1:

Redirect the Commercial Section’s attention toward trade promotion activities and ensure that
the Commercial Section develops a marketing strategy targeted toward small and medium-sized
firms.



                                                -25-
U.S. Department of Commerce                                                   Final Report BTD-10220
Office of Inspector General                                                               March 1999

US&FCS Response: US&FCS has developed an island-wide trade promotion program that, in
1998, included four major U.S. pavilions at international exhibitions, as well as a multi-state
catalog exhibition. In addition, the post organized an “America Week” product promotion that
included 52 new-to-market firms, almost exclusively focusing on small and medium-sized firms.

OIG Comment: We are encouraged by the recent trade promotion efforts and agree that the AIT
Commercial Section is working to meet the intent of our recommendation.


Recommendation #2:

Analyze the AIT Trade Center facility to determine if there are additional opportunities for
utilization of the facility, to improve the marketing strategy and presentation of the facility,
and to decide whether it would be beneficial to assign personnel to the facility on a full-time
basis.

US&FCS Response: US&FCS is reviewing options to make better use of and to improve the
appearance of the AIT Trade Center facility. However, improvements and additional contractual
staff will require an expenditure of funds generated by trade promotion events; AIT has been
unwilling to release additional funds to US&FCS for these purposes.

OIG Comment: We concur with US&FCS’s response to the recommendation and encourage
US&FCS to continue its pursuit of AIT for a release of funds for AIT Trade Center
improvements and contractual staff.


Recommendation #3:

Implement procedures to ensure that the SCO or DSCO reviews all revenues and expenses
associated with operating the Trade Center, and develops a methodology to set surcharge fees
related to achieving cost recovery.

US&FCS Response: US&FCS clarifies the technical definition of the AIT Trade Center to be a
multipurpose room, rather than a trade center per se. However, US&FCS understands the value
of such a facility for small and medium-sized exhibitors and maintains the Trade Center
primarily for them. US&FCS recognizes the need for a strong trade promotion staff and, the
SCO has proposed using residual funds from trade events to hire two local staff members to
promote such events.

OIG Comment: We concur with US&FCS’s response to our recommendation.



                                               -26-
U.S. Department of Commerce                                                Final Report BTD-10220
Office of Inspector General                                                            March 1999

Recommendation #4:

Reevaluate pricing policies to be in conformance with departmental cost recovery guidelines
as they relate to trade events and business facilitation services.

US&FCS Response: US&FCS states that the fees collected by the Commercial Section reflect
its intention to improve the Trade Center and to hire additional trade event support staff.
US&FCS further explains that because of the disputes associated with the MOU between AIT
and US&FCS, it has been unable to direct these proceeds toward the intended purposes.
However, March 1998 amendments to the MOU direct that proceeds from trade events
organized by the Commercial Section be returned to ITA in accordance with ITA’s standard
practice for collections and obligations reporting.

OIG Comment: We concur with US&FCS’s response to our recommendation.


Recommendation #5:

Explore opportunities to increase the number of trade events held in Taiwan outside the Taipei
area, especially in Kaohsiung.

US&FCS Response: US&FCS held a highly successful trade event in Kaohsiung in September
1998, and earlier in 1998 another successful trade promotion event took place in the city.
US&FCS states that the SCO is committed to helping U.S. firms take advantage of business
opportunities in Southern Taiwan and now considers the commercial staff allocation in
Kaohsiung at full strength, and that this will give Kaohsiung more importance in the
Commercial Section’s island-wide commercial strategy.

OIG Comment: We concur with US&FCS’s response to our recommendation.


Recommendation #6:

Ensure that the AIT Commercial Section incorporates a regional focus into the strategic plan
and develops regional initiatives that implement the National Export Strategy.

US&FCS Response: US&FCS disagreed with this finding, stating that the AIT Commercial
Section has a large trade promotion program and that much of the program’s success has been
predicated on working with U.S.-based Commercial Service teams. Throughout 1998, the
SCO’s trade promotion program has emphasized the importance of enlisting the support of



                                             -27-
U.S. Department of Commerce                                                     Final Report BTD-10220
Office of Inspector General                                                                 March 1999

Export Assistance Centers in the United States to promote not only Taiwan but regional export
opportunities.

OIG Comment: At the time of our field work, our interviews with Commercial Section staff
indicated that there was little exposure and coordination with U.S.-based Commercial Service
teams. We commend US&FCS and the SCO for the improved integration and focus of the
program and concur that the actions meet the intent of our recommendation.


Recommendation #7:

Ensure that the Commercial Section monitor PLC and PSV workload so that timeliness is
maintained.

US&FCS Response: US&FCS states that because of Taiwan’s political status, massive volume
of international trade, location and transportation links, there is an assumed substantial risk of
misuse of controlled U.S. exports to Taiwan. In an attempt to support the Bureau of Export
Administration’s efforts to safeguard U.S.-high technology exports, the Commercial Section has
agreed to perform PLC and PSV investigations. US&FCS noted, however, the AIT Commercial
Section is not technically obligated to perform these activities, nor does it receive funding for
the routine costs associated with performing the investigations.

In consultation with appropriate Commercial Section staff, the SCO has promulgated procedural
guidelines for the completion of PLCs and PSVs. Further, the SCO recognizes that in most
cases, non-technical AIT staff are very limited in their abilities to discern subtle discrepancies or
suspect patterns of conduct pertaining to high-technology exports and componentry. To
address this concern and guarantee the efficacy of AIT’s investigative activities, the SCO has
enlisted other AIT personnel that may be more technically astute to review the results of the
investigations.

US&FCS agrees with the OIG analysis pertaining to timeliness. However, for those
investigations not meeting timeliness requirements, US&FCS identifies circumstances
explaining tardiness.

Since the OIG review, the AIT has instituted a policy of advising BXA whenever delays are
anticipated. In addition, BXA has indicated to US&FCS that it is pleased with the AIT
Commercial Section support.

OIG Comment: The OIG review and analysis pertained to timeliness issues only, rather than
policy issues pertaining to whether US&FCS is technically required to perform such



                                                -28-
U.S. Department of Commerce                                                Final Report BTD-10220
Office of Inspector General                                                            March 1999

investigations. We are pleased that US&FCS has now instituted a policy to inform BXA in
advance of any potential delays. US&FCS should also ensure the technical competency of
those individuals conducting and reviewing the investigations.


Recommendation #8:

Ensure that contract employees do not conduct PLCs or PSVs, unless a specific waiver is
granted by BXA. Ensure that, in cases where American officers do not conduct on-site visits
associated with PLCs or PSVs, that this is clearly identified in AIT’s output.

US&FCS Response: US&FCS agrees with the Draft Report indicating that two PLCs were
performed in southern Taiwan by a contract employee. This individual is a trained U.S. citizen
on a long-term contract with AIT and was the acting Principal Commercial Officer for much FY
1997. The SCO concurs, however, that the response cable should have noted that the
performing officer was a contract employee.

OIG Comment: We reiterate our recommendation expressed in the Draft Report.




                                             -29-
U.S. Department of Commerce                                                    Final Report BTD-10220
Office of Inspector General                                                                March 1999

III.    INTERNAL CONTROL ENVIRONMENT

Internal controls and financial management practices of the Commercial Section are inadequate,
ineffective, and are not adequately emphasized by Commercial Section management. We found
problems that need quick resolution by Commercial Section management:

l       Source financial documentation is not efficiently maintained.

l       Key duties are not separated and supervisory review of internal controls is limited.

l       Proper imprest funds procedures are not in place.

l       Proper procedures are not followed on the reporting and use of funds generated by trade
        events.

l       Inadequate communication and information flow between the Commercial Section and
        AIT’s Budget & Finance (B&F) Section impedes effective financial management.

l       AIT/Taiwan B&F’s accounting system, as it existed during our review, does not meet
        Chief Financial Officer (CFO) Act requirements and is was not able to efficiently provide
        needed information for US&FCS to manage its operations.

l       Systematic analysis of obligations and disbursements does not take place.

l       The information technology profile of the Commercial Section is inadequate and unable
        to support operations.

A.      Sufficient Financial and Accounting Information Is Not Being Maintained

The Commercial Section does not maintain records to support its financial and administrative
operations. With respect to trade events, business services, publications, Gold Keys, and sub-
leasing of Trade Center space, the Commercial Section does not maintain a log of any category
of collections. Though source documentation of financial transactions is held at the post, records
are not adequately maintained by the trade center assistant. Source information is filed loosely in
folders, with no summary or explanation provided. For example, the trade events folder
combined collection and procurement documents, with no running balance of either maintained.

Without this financial information, the Commercial Section was unable to perform a
reconciliation against State Department reports (i.e., the Regional Administrative Management
Center (RAMC) 60 and 62 “Status of Funds” reports). For example, neither AIT/Taiwan B&F


                                                -30-
U.S. Department of Commerce                                                                 Final Report BTD-10220
Office of Inspector General                                                                             March 1999

nor the State Department’s RAMC 60 “Status of Funds” report could be reviewed for accuracy
without a log of source information. Also, AIT/Taiwan B&F information and the State
Department’s RAMC 60 “Status of Funds” report were not routinely provided to the
Commercial Section.

As a result, totals for revenues and expenditures cannot be quickly or accurately provided to
management. Furthermore, in the absence of cuff records, reconciliation to information
maintained by AIT/Taiwan is not possible. As previously noted, this is the result of a lack of
adequate management experience pertaining to administrative functions.

B.      Key Internal Control Duties Are Not Adequately Separated

The Commercial Section is characterized by inadequate separation of key duties, which
increases the risk of fraud and abuse. The trade center assistant position combines functions of
an administrative FN, a class B cashier, a receiving clerk, and other support staff. We found the
same situation in terms of management of the Section’s imprest fund where all petty cash
disbursement activities are performed by the trade center assistant who handles cash
disbursements to employees, requests for reimbursement, and reconciliations of the fund.

While there did not appear to be misuse of funds as a result of the collapsing of various duties,
the trade center assistant position clearly violates separation of duties principles. In the absence
of strong supervisory oversight, the risk of abuse already inherent in the trade center assistant
position remains high.

C.      Lack of Proper Imprest Fund Procedures in Place

The Commercial Section has not instituted proper procedures to manage its imprest fund
account equal to about $1,667.12 While we performed a cash count of the petty cash fund and
found the appropriate amount accounted for in cash and vouchers, and determined that the
proper authorization had been obtained for the petty cash vouchers, no log of petty cash
transactions is maintained, nor are there monthly accountability reports or formal
reconciliations. Also, spot checks of the petty cash fund are infrequent and are not recorded.

D.      Commerce Guidelines for Trade Event Reporting and
        Use of Trade Event Funds Not Followed

AIT Commercial Section does not observe standard trade event procedures prescribed by
US&FCS/Export Promotion Services (EPS) for monitoring trade event activity and funds. In


        12
             At the time of our review, $1 U.S. equaled about NT$30 (New Taiwan Dollars).

                                                       -31-
U.S. Department of Commerce                                                      Final Report BTD-10220
Office of Inspector General                                                                  March 1999

addition, the Commercial Section has used funds generated by trade events to purchase capital
equipment. Although sanctioned by previous US&FCS headquarters management and provided
for in the MOU, the purchase of this equipment with surplus trade event funds violates
US&FCS guidelines.13

The Trade Event Management System (TEMS) monitors mandatory weekly collections reports,
monthly obligation reports, and the status of events taking place all over the world. The
Commercial Section is not following required procedures for reporting trade event activity. For
example, trade events took place without being entered into the TEMS and events that were
initially entered into the system and subsequently took place in Taiwan had no associated final
event report. Monthly obligation reports or weekly collections reports for trade events were not
submitted by the Commercial Section to EPS nor, as discussed above, are financial records
being maintained in order to generate such reports.

Finally, we found that the Commercial Section routinely purchases capital equipment with trade
event funds without authorization from the ITA Trade Event Board, as required under
departmental guidelines. During FY 1997, the Commercial Section used trade event funds
generated from multiple, individual events to purchase office equipment and services valued at
approximately $72,000. Departmental regulations require approval from the ITA Trade Event
Board for purchases valued greater than $250 (recently changed to $1,000) for equipment that
must be used in direct support of a specific trade event.

The SCO, referencing a clause in the MOU, believes that trade events which are AIT-initiated do
not have to follow any of the standard departmental guidelines. However, EPS officials advised
us that AIT was not exempt from departmental reporting guidelines in this area and should
follow the same rules as any other post. EPS officials also stated that the Commercial Section
did not consult them regarding exemption from EPS reporting rules. In order to promote
consistency among all trade events, the MOU should be clarified to require adherence to
standard departmental guidelines.

E.      Commercial Section Lacks Information Needed to Control Operations

Commercial Section management officials complained that, until recently when a new B&F
officer was in place, there was a lack of communication between the Commercial Section and
B&F concerning timely financial information. Commercial Section management stated that they
repeatedly, but unsuccessfully, requested financial reports and budget information; the lack of
financial information adversely affected the Commercial Section’s ability to manage its financial



        13
           US&FCS Administrative and Financial Management Training Manual, “Trade Event Management”
chapter; 3/25/96.

                                                 -32-
U.S. Department of Commerce                                                      Final Report BTD-10220
Office of Inspector General                                                                  March 1999

and administrative operations. This was confirmed by other AIT officials who noted that there
were similar complaints regarding the previous AIT/Taiwan B&F officer.

In addition, we were advised by AIT officials that the State Department Financial Management
System (FMS) is not capable of maintaining standard financial statement information such as
accrual accounts, accounts receivables, and accounts payables. As a result, financial reporting
information cannot be generated in a cost effective or timely manner. Without such basic
functions, the FMS does not allow serviced agencies to meet the requirements of the CFO Act.
Furthermore, basic control techniques, such as reviewing the accounts receivable listing to ensure
timely collections or performing fluctuation analyses on account balances, cannot be
implemented. Also, reporting objectives, such as providing management with useful information
in a timely manner, cannot be achieved.

To address these problems, AIT is planning to replace its current accounting system with a new
accounting software package that specializes in non-profit accounting. Because the package is an
“off-the-shelf” system, it should require minimal customization. The system itself will consists
of a relational database with query features to aid in the extraction of desired information. It also
has functions that will facilitate the generation of financial statement reports which will assist AIT
in meeting the requirements of the CFO Act. We noted that AIT will hire a certified public
accountant for two years in order to assist with the installation and setup of the new system. We
believe that the Commercial Section should provide input with respect to how the new
accounting system will service their financial information needs.

F.      Gold Key Service Violated Lease Agreement

During FY 1997, the Commercial Section violated its lease agreement by sub-leasing cubicle
space to a Gold Key participant. The lease agreement signed by AIT to occupy space on the
32 nd floor of the World Trade Center prohibits sub-leasing. Specifically, the lease states that:

        “The Lessee shall not have the whole or any part of the premised (sic) subleased, sublet
        or lent to any third party nor use the same in the name of any third party. In case of the
        existence of any one of these circumstances, the Agreement shall be automatically
        terminated.”

By subletting this space, the Commercial Section violated its lease agreement and, therefore,
risked automatic termination of its lease. Before this type of service can be offered again, the
Commercial Section must obtain the lessor’s approval.




                                                -33-
U.S. Department of Commerce                                                              Final Report BTD-10220
Office of Inspector General                                                                          March 1999


G.      Prior Year Unliquidated Obligations and Unobligated Authorizations Exist

As noted above, AIT/Taiwan does not provide the Commercial Section with basic financial
information. Consequently, the Commercial Section cannot adequately review the RAMC 60
“Status of Funds” report in order to identify items that may require further attention. For
instance, procedures are not in place to ensure that the “Budget Execution, Status of Funds -
FMC60 Report” is reviewed for unobligated funds that may be outstanding. As a result, the
Commercial Section cannot determine if prior year funds available (unobligated) and prior year
unliquidated obligations are still valid, and runs the risk of failing to obligate funds prior to the
end of the fiscal year and then losing the authority to obligate them. Additionally, procedures are
not in place to ensure that unusual items on the report, such as liquidations occurring more than
two years after the initial obligation, are identified and reviewed by management for
appropriateness.

Prior year obligated funds of $38,043 have not been disbursed for accounts dating from FY 1993
through FY 1996.


                               Prior Year Unliquidated Obligations
              Category                 FY 1993        FY 1994         FY 1995         FY 1996        Subtotals

 Operations &Administration/Reimb.         $1,368         $27,448         $6,564                $0       $35,380

 Trust Fund                                      0            355             1,017        1,291           2,663

                                                                                          Total         $38,043


In addition, we noted prior year funds equaling $1,336 have not been obligated by the
Commercial Section.


                                     Prior Year Unobligated Funds
                Category                      FY 1994               FY 1995           FY 1996        Subtotals

 Operations & Administration/Reimb.                  $1,146                     $0              $0        $1,146

 Trust Fund                                              0                     $40          $150           $190

                                                                                           Total         $1,336


US&FCS management needs to annually determine the unliquidated obligations and deobligate
funds as needed.



                                                      -34-
U.S. Department of Commerce                                                  Final Report BTD-10220
Office of Inspector General                                                              March 1999

H.      Information Technology Deficiencies Need to Be Addressed

The AIT Commercial Section is being hampered by inadequate systems that are unable to fully
support operations. Specifically, the office does not have Internet connectivity at each of its
workstations, and the current system configuration is not compatible with local language
requirements. What was most noticeable was the lack of adequate support from both
AIT/Washington and US&FCS headquarters in assisting the Commercial Section in solving
these issues.

US&FCS Headquarters not ensuring that the Commercial Section
has useful information technology tools

The Commercial Section currently has an Internet connection to only one computer. We
believe, as does Commercial Section management, that, given the industry specialization for the
FNs and officers, greater Internet connectivity would assist staff in their trade promotion work.
In addition, we found that there were no bilingual capabilities with the WordPerfect software
that is resident on the current system. Management and staff noted that software that is available
to allow staff to produce correspondence and reporting in Chinese characters operates on a
Microsoft platform and is incompatible with the current Local Area Network (LAN).
Management also noted that material available in many databases is in Chinese, and is, again,
incompatible.

Management has recognized these problems and requested that US&FCS approve an internal
Local Area Network (LAN) to coexist with the BANYAN LAN, which would allow both
bilingual capabilities and direct Internet access. However, management noted that it took
US&FCS more than six months to act upon this request, and when it did, provided a short reply
which denied this request, but did not provide any additional options or offers of assistance.
US&FCS' response was inadequate and has required the Commercial Section to spend time
developing a solution to its problems in this area.

Decision on LAN support has not been made timely

The Commercial Section does not currently possess the in-house expertise to support its
information technology operations. AIT/Taipei provides some assistance but cannot provide the
day-to-day assistance that is necessary to maintain the Commercial Section's operations,
particularly given the physical separation of the two organizations. Commercial Section
management recognized this and developed a plan to hire a LAN manager position for its
operations. However, we were told both by the Commercial Section and by AIT information
technology specialists that the position description for this position has not been acted upon by
AIT/Washington, although the request has been with AIT since May 1997.



                                              -35-
U.S. Department of Commerce                                                    Final Report BTD-10220
Office of Inspector General                                                                March 1999

                                    RECOMMENDATIONS

We recommend that the Assistant Secretary and Director General of the US&FCS:

1.      Implement procedures in the AIT Commercial Section to ensure that appropriate cuff
        records regarding all accounting transactions are maintained, including summaries by
        event along with running balances of collections and expenditures.

2.      Reorganize the organizational structure of the Commercial Section so that the trade center
        assistant is delegated only appropriate responsibility.

3.      Separate the responsibilities surrounding the imprest fund so that conflicting duties, such
        as the cash count, reconciliation functions, cash maintenance, and disbursement
        functions, are performed by different employees. Surprise cash counts by another staff
        member should be performed periodically, and the SCO or the DSCO should review all
        petty cash reconciliations that are performed.

4.      Revise MOU to require adherence for current trade event reporting and procedures with
        departmental trade event guidelines.

5.      Ensure that Commercial Section management is involved in the implementation of the
        new accounting system. Input regarding the types of information the Commercial
        Section will need in order to more effectively operate should be provided to the
        implementation team.

6.      Notify lessor that certain services may constitute a sub-leasing arrangement and
        determine whether lessor grants permission to the Commercial Section to engage in such
        activity.

7.      Implement procedures to ensure that appropriate information is being maintained to
        perform periodic reconciliations to B&F and State Department reports in order to confirm
        that all transactions generated at post are being captured in the RAMC 60 and 62 “Status
        of Funds” reports.

8.      Implement procedures to ensure that the SCO or the DSCO review the FMC60 “Status of
        Funds” report at least semiannually in order to improve financial management and to
        ensure that funds can be properly obligated prior to the end of the fiscal year.

9.      Implement procedures to ensure that unusual items such as obligations that remain
        outstanding for more than two years, obligations occurring outside the year of


                                                -36-
U.S. Department of Commerce                                                  Final Report BTD-10220
Office of Inspector General                                                              March 1999

        expenditure authority, or disbursements occurring two or more years after the
        establishment of the obligation, are identified and investigated.

10.     Provide guidance to the Commercial Section regarding unobligated funds that have
        expired. A determination should be made on whether the funds can be used by the post,
        or whether they must be returned to the entity that issued the cable.

11.     Assist the AIT Commercial Section in finding a solution to provide access to each officer
        and FN to the Internet and provide bilingual software.

12.     Assist the Commercial Section in obtaining approval of a LAN Manager position for its
        operations.

US&FCS’s Response to Draft Report and OIG Analysis

US&FCS agrees with, or has taken action consistent with, all but two of the OIG
recommendations in this area. US&FCS did note, however, that the OIG may have
underestimated the difficulties that US&FCS’s management team has encountered in seeking a
full measure of cooperation from the AIT, under whose direct control US&FCS staff operates in
Taiwan. US&FCS acknowledges, on the other hand, that the problems posed by this
relationship require a parallel, cooperative approach, in Washington and in Taipei, which
US&FCS is pursuing. A summary of US&FCS’s position on each recommendation, as stated in
the draft report, is presented with OIG comments on the US&FCS response.

Recommendation #1:

Implement procedures in the AIT Commercial Section to ensure that appropriate cuff records
regarding all accounting transactions are maintained, including summaries by event along
with running balances of collections and expenditures.

US&FCS Response: US&FCS agrees that the administrative assistant should keep more timely
and detailed records and the assistant has been instructed to do so.

OIG Comment: We concur with US&FCS’s response to our recommendation.


Recommendation #2:

Reorganize the organizational structure of the Commercial Section so that the trade center
assistant is delegated only appropriate responsibility.



                                              -37-
U.S. Department of Commerce                                                   Final Report BTD-10220
Office of Inspector General                                                               March 1999

US&FCS Response: US&FCS considers the recommendation too narrow an approach, in light
of the necessities imposed by staff limitations and managerial requirements. US&FCS states
that redesigning administrative functions would require adding at least one, if not several,
unneeded employees.

OIG Comment: As stated in the Draft Report, while there did not appear to be a misuse of
funds as a result of the collapsing of various duties, the trade center assistant position clearly
violates separation of duties principles. In the absence of strong supervisory oversight, the risk
of abuse already inherent in the trade center assistant position remains high. Therefore, we
reiterate our recommendation.


Recommendation #3:

Separate the responsibilities surrounding the imprest fund so that conflicting duties, such as
the cash count, reconciliation functions, cash maintenance, and disbursement functions, are
performed by different employees. Surprise cash counts by another staff member should be
performed periodically, and the SCO or the DSCO should review all petty cash reconciliations
that are performed.

US&FCS Response: US&FCS asserts that the DSCO and Financial Management Officer do
conduct spot reconciliations. US&FCS further explains that the administrative assistant has a
small imprest fund for which only small reimbursements can be made. In addition, she has no
procurement authority, and contrary to what the Draft Report states, has no receiving authority.
US&FCS does agree with the Draft Report that better logs of petty cash transactions should be
maintained.

OIG Comment: Field work interviews indicated that the administrative assistant was in fact
receiving payments and that few cash counts existed. The DSCO informed the OIG team that he
conducted his first cash count the week prior to the team’s arrival. We reiterate our
recommendation.


Recommendation #4:

Revise MOU to require adherence for current trade event reporting and procedures with
departmental trade event guidelines.

US&FCS Response: US&FCS, as indicated in previous responses to the Draft Report
recommendations, is seeking to amend its MOU with AIT to ensure that the Commercial Section



                                               -38-
U.S. Department of Commerce                                                    Final Report BTD-10220
Office of Inspector General                                                                March 1999

reporting on trade events conform with ITA’s standard practice. The chief obstacle to new
amendments has been AIT’s refusal to cede control of revenues it prefers to use for its own
purposes, i.e., as part of general funds to benefit the entire AIT operation. In view of AIT’s lack
of cooperation, US&FCS has indicated that it may consider such funds part of the payment due
each year to AIT and might deduct these sums from the invoice presented by AIT. US&FCS
will continue to press AIT to recognize that departmental procedures should apply in the
disposal of funds generated from trade events organized by the Commercial Section.

OIG Comment: We concur with US&FCS’s response to our recommendation.


Recommendation #5:

Ensure that Commercial Section management is involved in the implementation of the new
accounting system. Input regarding the types of information the Commercial Section will need
in order to more effectively operate should be provided to the implementation team.

US&FCS Response: US&FCS recognizes the necessity of being engaged in this process and
notes that the preliminary budget formats seen by the SCO reflect US&FCS’s needs. US&FCS
also recognizes that the new system, while representing a great improvement over previous
practices, has possible shortcomings. US&FCS is closely monitoring and plainly
communicating these issues to AIT. AIT’s responsiveness in its implementation, however, is
not within US&FCS’s control.

OIG Comment: We concur with US&FCS’s response to the recommendation.


Recommendation #6:

Notify lessor that certain services may constitute a sub-leasing arrangement and determine
whether lessor grants permission to the Commercial Section to engage in such activity.

US&FCS Response: US&FCS notes that the Commercial Section has two leases: one for the
seventh-floor multifunction room, and this lease does allow subleasing; the second lease is for
the 32 nd -floor office space, where the Commercial Section is the sole lessee. The Commercial
Section did provide space to a long-term client in FY 1997, but did not actually lease space to
the client. The Department’s OGC has reviewed this situation and has declined to terminate the
arrangement. At any rate, this arrangement with the client has concluded. US&FCS appreciates
the OIG’s careful review of the Commercial Section’s lease, and, if US&FCS should ever
consider the need for sub-leasing space, will seek the lessor’s approval first.



                                               -39-
U.S. Department of Commerce                                                 Final Report BTD-10220
Office of Inspector General                                                             March 1999

OIG Comment: The lease under consideration was the second lease US&FCS refers to: the
32 nd -floor office space for the Commercial Section. We stated in the Draft Report that the
Commercial Section was subletting space and violated its lease agreement, therefore, risking
termination of its lease. Field work interviews and additional documentation support our
finding as stated. We are pleased that US&FCS has sought OGC review and concur with
US&FCS’s response to our recommendation.


Recommendation #7:

Implement procedures to ensure that appropriate information is being maintained to perform
periodic reconciliations to B&F and State Department reports in order to confirm that all
transactions generated at post are being captured in the RAMC 60 and 62 “Status of Funds”
reports.

US&FCS Response: By addressing recommendations #1 and #2 of this section, US&FCS has
responded to this recommendation.

OIG Comment: We concur with US&FCS’s response to recommendation #1; however, as
previously stated, we do not concur with its response to recommendation #2.


Recommendation #8:

Implement procedures to ensure that the SCO or the DSCO review the FMC60 “Status of
Funds” report at least semiannually in order to improve financial management and to ensure
that funds can be properly obligated prior to the end of the fiscal year.

US&FCS Response: US&FCS has repeatedly pressed this request on AIT’s Financial
Management Officer over the past three and one-half years, to no avail — with the result that
effective reviews are unable to be conducted. US&FCS hopes that the new system will enable it
to exert authority over the timely disposition of funds.

OIG Comment: We concur with US&FCS’s response to the recommendation.


Recommendation #9:

Implement procedures to ensure that unusual items such as obligations that remain
outstanding for more than two years, obligations occurring outside the year of expenditure



                                              -40-
U.S. Department of Commerce                                                 Final Report BTD-10220
Office of Inspector General                                                             March 1999

authority, or disbursements occurring two or more years after the establishment of the
obligation, are identified and investigated.

US&FCS Response: Although cooperation between the Commercial Section and the Financial
Management Officer has improved markedly over the past year, it remains difficult to obtain
timely, complete, and accurate information under the system being phased out and during the
transition to the new system. US&FCS expects that the new system will enable better control
over the disposition of funds.

OIG Comment: We concur with US&FCS’s response to the recommendation.


Recommendation #10:

Provide guidance to the Commercial Section regarding unobligated funds that have expired.
A determination should be made on whether the funds can be used by the post, or whether they
must be returned to the entity that issued the cable.

US&FCS Response: At AIT’s insistence, funding authorizations are made exclusively by AIT
from its Washington headquarters, not through US&FCS. Through ITA, US&FCS transfers
funds to AIT via a Washington bank account, and AIT allocates funds to the Commercial
Section accordingly. Thus, the responsibility for accounting for unobligated funds and
disposing of them falls to the AIT in Taipei and AIT in Washington. As stated in previous
responses, the AIT has refused to cede control of trade event revenues generated by the
Commercial Section. Again, as stated in previous responses, US&FCS may consider such funds
to be part of the payment due each year to AIT and deduct these sums from the invoice
presented by AIT.

OIG Comment: We concur with US&FCS’s response to the recommendation.


Recommendation #11:

Assist the AIT Commercial Section in finding a solution to provide access to each officer and
FN to the Internet and provide bilingual software.

US&FCS Response: US&FCS has been responsive to the OIG team’s observation that the
Commercial Section requires a system upgrade to match the staff’s ability and to improve its
productivity. The post has developed a complete upgrade program with the Information
Management Officer. This plan, when implemented, will make the Commercial Section the first
post worldwide to have internet access on each desktop. The Commercial Section is also the


                                              -41-
U.S. Department of Commerce                                                    Final Report BTD-10220
Office of Inspector General                                                                March 1999

first to install a remote-access server to allow its officers to work on their home computers as an
extension of the office.

Regarding bilingual software, the Commercial Section is working on a pilot project that will
allow simultaneous use of Chinese and English on the same server and to adapt the software to
the US&FCS Lotus Notes System. This is intended to occur in the latter half of 1999. Finally,
the Commercial Section is part of the State Department’s ChinaNet project, which will provide
bilingual access between Taiwan and Mainland China posts.

OIG Comment: We concur with US&FCS’s response to the recommendation.


Recommendation #12:

Assist the Commercial Section in obtaining approval of a LAN Manager position for its
operations.

US&FCS Response: The Commercial Section now has a fully qualified LAN Manager.

OIG Comment: We concur with US&FCS’s response to the recommendation.




                                               -42-
U.S. Department of Commerce                                              Final Report BTD-10220
Office of Inspector General                                                          March 1999

                                      APPENDIX II
                       The AIT Commercial Section Organizational Chart
U.S. Department of Commerce                                      Final Report BTD-10220
Office of Inspector General                                                  March 1999

                                        APPENDIX III

                                           Acronyms

AIT             American Institute in Taiwan
APEC            Asia-Pacific Economic Cooperation
B&F             Budget and Finance
BXA             Bureau of Export Administration
CFO             Chief Financial Officer
DSCO            Deputy Senior Commercial Officer
EPS             Export Promotion Services
FMS             Financial Management System
FN              Foreign National
ITA             International Trade Administration
LAN             Local Area Network
MFN             Most Favored Nation
MOU             Memorandum of Understanding
NT              New Taiwan Dollars
OIG             Office of Inspector General
ORAM            Overseas Resource Allocation Model
PLC             Pre-License Check
PSV             Post-Shipment Verification
RAMC            Regional Administrative Management Center
SCO             Senior Commercial Officer
TEMS            Trade Event Management System
U.S.-AEP        United States - Asia Environmental Partnership
US&FCS          United States and Foreign Commercial Service
WTO             World Trade Organization
